<html>
<title> - ECONOMIC IMPACT AND FUTURE MANAGEMENT OF L.A./ONTARIO INTERNATIONAL AIRPORT</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                 ECONOMIC IMPACT AND FUTURE MANAGEMENT
                 OF L.A./ONTARIO INTERNATIONAL AIRPORT

=======================================================================

                               (112-108)

                             FIELD HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                SEPTEMBER 27, 2012 (Ontario, California)

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation






                  U.S. GOVERNMENT PRINTING OFFICE
76-150                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2344534c63405650574b464f530d404c4e0d">[email&#160;protected]</a>  


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    JOHN L. MICA, Florida, Chairman
DON YOUNG, Alaska                    NICK J. RAHALL II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
FRANK A. LoBIONDO, New Jersey            Columbia
GARY G. MILLER, California           JERROLD NADLER, New York
TIMOTHY V. JOHNSON, Illinois         CORRINE BROWN, Florida
SAM GRAVES, Missouri                 BOB FILNER, California
BILL SHUSTER, Pennsylvania           EDDIE BERNICE JOHNSON, Texas
SHELLEY MOORE CAPITO, West Virginia  ELIJAH E. CUMMINGS, Maryland
JEAN SCHMIDT, Ohio                   LEONARD L. BOSWELL, Iowa
CANDICE S. MILLER, Michigan          TIM HOLDEN, Pennsylvania
DUNCAN HUNTER, California            RICK LARSEN, Washington
ANDY HARRIS, Maryland                MICHAEL E. CAPUANO, Massachusetts
ERIC A. ``RICK'' CRAWFORD, Arkansas  TIMOTHY H. BISHOP, New York
JAIME HERRERA BEUTLER, Washington    MICHAEL H. MICHAUD, Maine
RANDY HULTGREN, Illinois             RUSS CARNAHAN, Missouri
LOU BARLETTA, Pennsylvania           GRACE F. NAPOLITANO, California
CHIP CRAVAACK, Minnesota             DANIEL LIPINSKI, Illinois
BLAKE FARENTHOLD, Texas              MAZIE K. HIRONO, Hawaii
LARRY BUCSHON, Indiana               JASON ALTMIRE, Pennsylvania
BILLY LONG, Missouri                 TIMOTHY J. WALZ, Minnesota
BOB GIBBS, Ohio                      HEATH SHULER, North Carolina
PATRICK MEEHAN, Pennsylvania         STEVE COHEN, Tennessee
RICHARD L. HANNA, New York           LAURA RICHARDSON, California
JEFFREY M. LANDRY, Louisiana         ALBIO SIRES, New Jersey
STEVE SOUTHERLAND II, Florida        DONNA F. EDWARDS, Maryland
JEFF DENHAM, California
JAMES LANKFORD, Oklahoma
REID J. RIBBLE, Wisconsin
CHARLES J. ``CHUCK'' FLEISCHMANN, 
    Tennessee
VACANCY
                                ------                                7

                        Subcommittee on Aviation

                  THOMAS E. PETRI, Wisconsin, Chairman
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       RUSS CARNAHAN, Missouri
FRANK A. LoBIONDO, New Jersey        DANIEL LIPINSKI, Illinois
SAM GRAVES, Missouri                 PETER A. DeFAZIO, Oregon
JEAN SCHMIDT, Ohio                   BOB FILNER, California
RANDY HULTGREN, Illinois             EDDIE BERNICE JOHNSON, Texas
CHIP CRAVAACK, Minnesota, Vice       LEONARD L. BOSWELL, Iowa
    Chair                            TIM HOLDEN, Pennsylvania
BLAKE FARENTHOLD, Texas              MICHAEL E. CAPUANO, Massachusetts
BILLY LONG, Missouri                 MAZIE K. HIRONO, Hawaii
PATRICK MEEHAN, Pennsylvania         STEVE COHEN, Tennessee
STEVE SOUTHERLAND II, Florida        ELEANOR HOLMES NORTON, District of 
JAMES LANKFORD, Oklahoma                 Columbia
JOHN L. MICA, Florida (Ex Officio)   NICK J. RAHALL II, West Virginia
REID J. RIBBLE, Wisconsin              (Ex Officio)
CHARLES J. ``CHUCK'' FLEISCHMANN, 
    Tennessee
VACANCY


                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               TESTIMONY
                                Panel 1

Hon. Alan D. Wapner, Member, Ontario City Council, and Board 
  Member of Ontario International Airport Authority (OIAA).......     7
Hon. Gary Ovitt, Fourth District Supervisor, San Bernardino 
  County, and Board Member of OIAA...............................     7
Miguel Santana, City Administrative Officer, City of Los Angeles.     7

                                Panel 2

Hon. Ronald O. Loveridge, Mayor, City of Riverside, and Board 
  Member of OIAA.................................................    22
Lucy Dunn, President and Chief Executive Officer, Orange County 
  Business Council, and Board Member of OIAA, accompanied by 
  Larry Brose, Vice President, Investor Relations and Business 
  Development, Orange County Business Council....................    22
Brian Perry, Chief Legislative Deputy for Councilman Dennis P. 
  Zine, Third District, Los Angeles City Council.................    22
John Husing, Ph.D., Vice President, Economics & Politics, Inc....    22

           PREPARED STATEMENT SUBMITTED BY MEMBER OF CONGRESS

Hon. Ken Calvert, of California..................................    39

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Hon. Alan D. Wapner..............................................    41
Hon. Gary Ovitt..................................................    44
Miguel Santana...................................................    47
Hon. Ronald O. Loveridge.........................................    52
Lucy Dunn........................................................    56
Councilman Dennis P. Zine (submitted by witness Brian Perry).....    61
John Husing, Ph.D................................................    69

                       SUBMISSION FOR THE RECORD

Hon. Gary G. Miller, a Representative in Congress from the State 
  of California, request to submit written statement of Steve 
  PonTell, President, Ontario Airport Alliance...................     3

[GRAPHIC] [TIFF OMITTED] T6150.001

[GRAPHIC] [TIFF OMITTED] T6150.002

[GRAPHIC] [TIFF OMITTED] T6150.003

[GRAPHIC] [TIFF OMITTED] T6150.004

[GRAPHIC] [TIFF OMITTED] T6150.005

[GRAPHIC] [TIFF OMITTED] T6150.006



                       ECONOMIC IMPACT AND FUTURE
                             MANAGEMENT OF
                   L.A./ONTARIO INTERNATIONAL AIRPORT

                              ----------                              


                      THURSDAY, SEPTEMBER 27, 2012

                  House of Representatives,
                          Subcommittee on Aviation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 1:32 p.m., in 
city of Ontario City Hall, 303 East B Street, Ontario, 
California, Hon. Thomas Petri (Chairman of the subcommittee) 
presiding.
    Present: Representatives Petri and Miller.
    Also Present: Representatives Baca and Calvert.
    Mr. Petri. I'd like to begin this Aviation Subcommittee 
field hearing by thanking the city of Ontario Mayor Leon, 
Representatives Gary Miller and Joe Baca, and we will soon be 
joined by Ken Calvert, the airport board members, city and 
county officials, concerned citizens in attendance for your 
hospitality and for your appreciation today. We would also like 
to recognize the hard work of Jacob Green and his team in 
helping to make the arrangements for this hearing today. It is 
very much appreciated.
    Today the Subcommittee on Aviation will hear testimony on 
the economic impact of and future plans for the L.A./Ontario 
International Airport. The goal of this oversight hearing is to 
learn about the economic impact of the airport, including its 
role as a job creator and its place in the national aviation 
system.
    We will also hear testimony about future plans for this 
medium-hub commercial airport.
    I want to emphasize that the presence of the House Aviation 
Subcommittee here today should not be interpreted as a sign 
that Congress plans to inject itself into future discussions 
related to the management of the airport. This is a matter that 
must be decided by local and regional policymakers, many of 
whom are, in fact, in attendance here this afternoon.
    I look forward to hearing from the witnesses, and thank you 
for your participation.
    Before I recognize Mr. Miller for his opening statement, I 
would ask unanimous consent that Members not on the committee 
be permitted to sit with the committee at today's hearing, 
offer testimony and ask questions.
    Without objection, so ordered.
    I would also ask unanimous consent that the record of 
today's hearing remain open until such time as our witnesses 
have provided answers to any questions that may be submitted to 
them in writing, and I ask unanimous consent that the record 
remain open for 15 days for additional comments and information 
submitted by Members or witnesses to be included in the record 
of today's hearing.
    Without objection, so ordered.
    Now I would really like to recognize a hard-working Member 
of Congress and a colleague who invited us to come and to learn 
more about the situation, Representative Gary Miller.
    Mr. Miller. It is coming on. All right. There are no 
lights. I am assuming you can hear me.
    Mr. Petri. The acoustics are so good, you can't even tell 
it is not on.
    Mr. Miller. It is really good to be here today. I first 
represented Ontario Airport from 1998 to 2002, and you had 
Mayor Gary Ovitt as a supervisor here. It is good to see you 
again.
    I want to thank the city for their hospitality, for 
inviting us here today.
    I would like to mention my colleagues from California, Joe 
Baca, who represents the area. We worked hard for years on 
issues that benefit the region. And a good friend of mine, Ken 
Calvert, who is on his way from his office right now, and he 
should be here shortly.
    But we need to discuss the issues of the airport. There is 
also a request from the Ontario Airport Alliance. I would like 
to admit their statement into the record.
    Mr. Petri. No objection.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T6150.007
    
    Mr. Miller. I would like to thank the subcommittee 
chairman, Mr. Petri. He flew across the United States to get 
here today. He has been a good friend and colleague for 14 
years on the committee, and he believes in transportation. Last 
time we had a hearing here was Chairman Jimmy Duncan, who is 
still a subcommittee chairman, who hosted the last one.
    We need to discuss the need for local control. We have 
looked at what has happened to Ontario in recent years. There 
are no fingers being pointed at LAWA in any fashion, but the 
benefit of this airport is tremendous.
    It is situated in one of the most fastest growing regions 
in the U.S., serving over 6 million people from San Bernardino, 
Riverside County, and portions of Orange County and L.A. 
County. The explosive population growth demands that planning 
and investment in our aviation and surface transportation 
infrastructure be coordinated on all levels in order to ensure 
that movement of goods and people can continue in the future.
    With most southern California airports close and at full 
capacity, Ontario is the most promising solution to southern 
California's future aviation needs because it has the ability 
to accommodate a large increase in air services, where the 
other airports have very limited capacity today.
    I had the honor, like I said, of representing this when it 
was the 41st Congressional District. It is changing to a new 
one today. I went to the 42nd, and now I am in the 31st. But at 
that point, Mayor Ovitt, we worked on major issues. We talked 
about the need for UPS having the benefit of having the China 
route, which they did. We got that implemented. We had many 
infrastructure needs around the airport that we worked 
together, the mayor and the city council and myself, to 
accommodate those things. We did a good job.
    We need to look to the future. August 2000, as I said, we 
had the other subcommittee hearing here, and it was very good. 
The hearing today is the only other time members of the 
Southern California Transportation Committee have been in this 
area to discuss a need for this airport.
    For the 1980s and 1990s, airline deregulation produced 
greater competition and lower fares, which led to a steady 
increase in passenger traffic. However, by the end of 2011, 
Ontario was down 32 percent fewer passengers, and 2000 was a 
dismal record in comparison to the Los Angeles Airport.
    In 2000 to 2001, the number of Ontario passengers was close 
to that of John Wayne. Today, passenger traffic at Ontario is 
slightly more than half of John Wayne. Furthermore, Burbank 
Airport, which handles far fewer passengers than Ontario in 
2000, is now about the same size as Ontario. These comparisons 
showing Ontario's decline while other southern California 
airports remain healthy is a clear sign that something must be 
done differently in the future.
    I applaud the efforts of our local elected officials in the 
community and business leaders to help bring Ontario to local 
control and make Ontario one of the most competitive passenger, 
cargo and business airports in the United States.
    As negotiations continue between the new authority and 
LAWA, there has been a sense of urgency as a precipitous 
decline in the service in Ontario from 2007 has meant the loss 
of nearly $500 million to the Inland Empire regional economy, 
and the loss of more than 9,250 jobs. The transfer of the 
airport sponsorship to the new authority is required if we are 
to achieve true airline regionalization. Ontario is an economic 
engine to the region.
    Earlier this week I met with Gina Marie Lindsey, who is 
executive director of LAWA. We had a very positive meeting, and 
I believe the conclusion of that meeting was that we needed to 
do something for the benefit of the region and for the benefit 
of this airport. We share a mutual goal that Ontario needs to 
be capable to provide great economic benefits, and that 
provision needs to happen as soon as possible.
    I again would like to thank Chairman Petri. He came a long 
way. He understands the importance of this airport. We 
discussed it.
    Congressman Baca and I have had numerous discussions on 
this issue. I believe this is an area that we can dissuade many 
that believe bipartisanship is not truly available and does not 
truly happen, because it does. We both realize that there is a 
tremendous need, and if we cooperate and work together, we can 
accomplish many good things.
    And it is good to see my good friend, Kenny Calvert, here, 
and I yield back the balance of my time.
    Mr. Petri. Thank you.
    Representative Baca.
    Mr. Baca. Well, thank you very much. Good afternoon to all 
of you for coming. Mayor and city council, thank you for 
allowing us to use your facility this afternoon on a very 
important topic as we begin to discuss the Ontario 
International Airport and its importance to the southern 
California region. And I state the southern California region, 
so it is not just about the Inland Empire, but it is about the 
southern California region.
    And I want to thank the subcommittee chairman, Tom Petri, 
for traveling to Ontario to hold this critical hearing. In 
fact, I happened to talk to him this morning and he indicated 
that he flew from Wisconsin to Phoenix, and then Phoenix on to 
Ontario. So that tells us that Ontario is important for this 
region and to maintain the airport out here. So thank you very 
much for flying Southwest, although I am not advertising 
Southwest. But that is how he flew into this area.
    I also want to thank the Chair for giving me an opportunity 
to participate in this Transportation panel.
    I also want to thank members of the Transportation 
Infrastructure Committee for being a strong advocate. One of 
the strongest advocates in the area has been Gary Miller, 
Representative Gary Miller, who not only represented this city, 
along with me and others, has worked diligently to improve the 
quality of life in the Inland Empire, and he knows the 
importance of what this airport means to this region. I think 
together in a bipartisan effort, along with many other Members, 
we can collaborate and work and hopefully we can solve the 
issue that is pending before us in a very positive way.
    One of my other colleagues who is here, I would like to 
recognize him as well, and that is Ken Calvert who is with us, 
who is also very much concerned with Ontario International and 
what it means to our region, and what it means to Riverside and 
the surrounding area. So thank you very much, Ken Calvert, for 
being here this morning.
    The history of Ontario Airport dates all the way back to 
1923, when a landing field was established on the lands leased 
from Union Pacific Railroad. Since then, Ontario Airport has 
been a benefit to the communities and residents of California 
and the Inland Empire.
    It also provides good paying jobs for the area residents, 
increases economic development, and improves the overall 
quality in our area. In fact, the airport has been called ``the 
jewel of the Inland Empire.''
    Unfortunately, the last 7 years have been difficult for 
Ontario Airport. Since 2007, only one other airport in the 
Nation, Cincinnati, has suffered a greater percentage of 
decline in the number of passengers. This decline in air 
traffic has cost our region in terms of lost jobs, tax revenue, 
and economic development.
    What I firmly believe is that this problem is one that can 
be fixed. I say that can be fixed with the work and looking 
forward and thinking and bold actions that we all need to take. 
As we convene this hearing today, officials from Ontario and 
Los Angeles are in the process of ironing out an agreement to 
return Ontario Airport to local control. This is a positive 
step in what has been a long and often difficult process.
    While I have introduced legislation in the House of 
Representatives to have the Federal Government mandate the 
transfer of the airport, it is encouraging that the issues can 
hopefully be resolved at the local level.
    I want to commend all of the parties involved for this 
progress that has been made so far. Alan Wapner, thank you for 
your leadership. Jim Bowman, thank you as well in what you have 
done in bringing this to our attention, and hopefully we will 
work forward.
    But there is still much that needs to be done and discussed 
to determine the path ahead of Ontario Airport. It is 
imperative that we work together to ensure the brightest future 
possible for the airport so that we can help put more Inland 
residents back to work.
    So today we will listen, we will learn from excellent 
panels of witnesses. I hope this hearing will build our 
collaborative effort in strengthening Ontario Airport and 
create new jobs, tax revenue, economic development for the 
Inland Empire, and improving the quality of life for all of us 
living around this region. Ultimately, we must all work 
together to maintain a positive environment, and that is what 
Gary Miller and others are trying to do in trying to make sure 
that Ontario is back at the local control.
    Once again, I thank the participant Members and the 
witnesses for their time. I yield back the balance of my time.
    Mr. Petri. Thank you.
    Representative Calvert.
    Mr. Calvert. Well, thank you, Chairman Petri, for coming 
out here to California and doing this hearing. I will have a 
full statement that I would like to introduce for the record.
    But I just have a few short comments.
    I want to thank my friend, Gary Miller, who invited me here 
today, and Joe and all of us from the Inland Empire, because we 
know this is not just an airport for San Bernardino County or 
for East Los Angeles but for this entire region, including 
Riverside County. This is an airport that we utilize on many 
occasions. I just flew out here the other day to go to San 
Francisco, and this is our regional airport.
    So it has been somewhat disheartening to all of us to see 
what has happened to this wonderful facility, and we would love 
to work forward with the city of Los Angeles to move this 
airport along.
    I know that Jerry Lewis couldn't be here today. He is still 
in Washington, DC. He feels very strongly about this, as we all 
do. We want to make sure that this airport does well, and I 
think the city of Ontario certainly has the interest and will 
do a great job of making this a premiere facility for this 
entire region.
    So not only does it help Ontario, but those of us who fly 
out of LAX a lot, it will help LAX because you can only jam so 
much into that box, and we are in that box, the three of us, 
every single week. The parking is tough. The traffic is tough. 
We need to kind of share the wealth a little bit and get some 
flights out of here, Ontario, and I think it will work great 
for the region.
    So thanks for having this hearing, and I appreciate being 
here with you.
    Mr. Petri. Thank you.
    Our first panel of witnesses consists of the Honorable Alan 
D. Wapner, who is a member of the Ontario City Council; and the 
Honorable Gary Ovitt, Fourth District Supervisor, San 
Bernardino County; and Mr. Miguel Santana, City Administrative 
Officer, city of Los Angeles. Gentlemen, thank you for being 
here today. Thank you for the effort that went into your 
prepared statements, which will be made part of the record of 
this hearing. I would invite you to summarize those statements 
in about 5 minutes, beginning with Alan Wapner.

TESTIMONY OF THE HONORABLE ALAN D. WAPNER, MEMBER, ONTARIO CITY 
  COUNCIL, AND BOARD MEMBER OF ONTARIO INTERNATIONAL AIRPORT 
  AUTHORITY (OIAA); THE HONORABLE GARY OVITT, FOURTH DISTRICT 
 SUPERVISOR, SAN BERNARDINO COUNTY, AND BOARD MEMBER OF OIAA; 
 AND MIGUEL SANTANA, CITY ADMINISTRATIVE OFFICER, CITY OF LOS 
                            ANGELES

    Mr. Wapner. Thank you, Mr. Chair, Congressman Miller, 
Congressman Baca, and Congressman Calvert. On behalf of the 
city of Ontario and the newly formed Ontario International 
Airport Authority, welcome to Ontario. My name is Alan D. 
Wapner. I am a city council member for the city of Ontario and 
a board member for the new Ontario International Airport 
Authority. Thank you for holding this field hearing on this 
matter of critical importance to the Inland Empire and all of 
southern California.
    As a result of the declining conditions at Ontario 
International Airport and the region's concerns about the 
airport's ability to sustain commercial air traffic in the 
future, the Ontario City Council took action last month and 
formed the Ontario International Airport Authority. This new 
Authority was formed through a Joint Powers Agreement between 
the city of Ontario and the county of San Bernardino.
    Over the past 2 years, a compelling case has been made for 
why the city of Los Angeles should relinquish control of 
Ontario International Airport. As I wrote in an op-ed in the 
Los Angeles Times, there are many reasons for Ontario to be 
placed under local control and governed by a multi-
jurisdictional airport authority.
    One, it allows Los Angeles World Airport, LAWA, to focus 
its energy and time on LAX for the benefit of the region's 
economy as a whole.
    Two, it promotes regionalization by returning Ontario 
International Airport to local control, which is conducive to 
the development of robust regional airports.
    And three, it ensures all of southern California, including 
Los Angeles, will have sufficient and affordable airport 
capacity. Without adequate capacity, airlines will be forced to 
land elsewhere.
    This transfer will also protect the significant financial 
investment made into the Ontario Airport by the Federal 
Government and the city of Ontario. Hundreds of millions of 
dollars to enhance Ontario Airport ground access and associated 
infrastructure have been accomplished through our fiduciary 
partnership. These multimillion-dollar projects include grade 
separations, street widenings, interchange upgrades, radio 
system enhancements, landscaping, land use planning studies, 
water treatment systems, and noise mitigation programs.
    The inability of the Ontario Airport to support commercial 
air traffic will not only undermine the region's air traffic 
strategy but will inevitably undermine Federal, State, and 
local-funded infrastructure investments designed to support 
Ontario Airport into the foreseeable future.
    To prevent this disaster, just last week Los Angeles City 
Administrative Officer Miguel Santana released his report on 
options for future management and control of ONT. We embrace 
his recommendation that the CAO facilitate negotiations between 
LAWA, the city of Ontario, the county of San Bernardino, the 
Ontario International Airport Authority and other primary 
stakeholders to determine the most effective and appropriate 
ownership and management alternative for the airport.
    All of southern California, including Los Angeles, will be 
better served by the transfer of Ontario Airport to the Ontario 
International Airport Authority. It is our intent that 
negotiations with the city of Los Angeles result in a transfer 
that is a win for all parties and is structured in accordance 
with FAA policies. By transferring sponsorship of Ontario 
International Airport from LAWA to the Ontario International 
Airport Authority, the airport will have a sponsor that has a 
vested interest in its success and is accountable for providing 
long-term airport capacity for the benefit of the entire 
region, including the city of Los Angeles.
    I would like to take this opportunity to express my 
appreciation to the Los Angeles City Council members Dennis 
Zine, Bill Rosendahl and Paul Koretz for their motion of March 
20th, 2012. Their motion resulted in the Los Angeles City 
Administrative Officer's report which has given all parties the 
direction and clarity to move ahead with the airport's 
transfer.
    I know I speak for the entire board of the Ontario 
International Airport Authority when I say we are fully 
committed to restoring Ontario International Airport as the 
region's most important economic engine capable of meeting the 
long-term demand for air travel in southern California. Thank 
you.
    Mr. Petri. Thank you.
    Supervisor Ovitt.
    Mr. Ovitt. Good afternoon and thank you, Chairman Petri and 
Representatives Miller, Calvert and Baca, for this very 
important day in Ontario. Welcome to Ontario, San Bernardino 
County and the Inland Empire. My name is Gary Ovitt. I am the 
Fourth District Supervisor for the county of San Bernardino, 
board member of the Ontario International Airport Authority, 
and a former mayor of this great city of Ontario.
    The Ontario International Airport Authority was created in 
August of 2012 by a Joint Powers Agreement between the city of 
Ontario and the county of San Bernardino. Its purpose is to 
oversee the orderly transfer of the airport from the city of 
Los Angeles and provide the governance for the ongoing 
operations of the airport.
    Under terms of the Joint Powers Agreement, I joined Ontario 
City Council members Alan D. Wapner, to my left, and Jim W. 
Bowman of the Ontario International Airport Authority on board 
as my district includes the cities of Ontario, Chino, Chino 
Hills, Montclair, and the southern portion of Upland.
    We are very fortunate that the city of Riverside's mayor, 
Ronald O. Loveridge, and president and CEO of Orange County 
Business Council, Lucy Dunn, have agreed to join the Authority 
as board members representing the entire region.
    Under the 2005 stipulated settlement agreement signed by 
Mayor Antonio Villaraigosa, a champion of airport 
regionalization, growth of passenger and air cargo activity is 
a requirement. The historic settlement agreement cleared the 
way for billions of dollars in construction projects now 
underway at LAX. The city of Los Angeles can show its 
commitment to airport regionalization and encourage the growth 
of Ontario International Airport by transferring Ontario 
International Airport to those who have a vested interest in 
its success.
    Local control has proven to be more conducive to developing 
robust regional airports than trying to manage them from a city 
many miles away in a different county.
    Ontario International Airport is of great importance to all 
of southern California. It deserves to be managed by a multi-
jurisdictional agency responsive and accountable to the entire 
region. I believe the Ontario International Airport Authority 
will help the airport rebound from the neglect of recent years 
while positioning itself for long-term growth consistent with 
the regional transportation plan of the Southern California 
Association of Governments, otherwise known as SCAG, the 
largest metropolitan planning organization in the country.
    Ontario International Airport does not serve the Inland 
Empire alone. Its catchment area encompasses some 6 million 
people living in a 25-mile radius of the airport. Thousands of 
air travelers bypass Ontario International Airport each day to 
get the flight schedules and fares they seek from surrounding 
regional airports, increasing the traffic congestion and 
automotive emissions.
    From my previous roles as president of the Southern 
California Association of Governments and a former county 
representative on the South Coast Air Quality Management 
District, I can attest to the need of a successful regional 
airport to benefit the overall transportation needs of the 
region.
    One of the earliest proponents of a change in control of 
Ontario International Airport came from the SCAG regional 
council comprised of 84 elected officials representing 189 
cities, six counties, and six county transportation 
commissions. SCAG concluded that transferring Ontario 
International Airport to local control is in the best interest 
of the city of Los Angeles and the southern California region.
    In a resolution unanimously adopted on September the 2nd, 
2010, SCAG said the change of airport sponsorship will enable 
the city of Los Angeles to focus its attention on modernizing 
LAX and restoring passenger traffic to pre-September 11 levels, 
essential steps to enable LAX to achieve its full potential as 
the city of Los Angeles primary economic engine. By 
transferring control of Ontario International Airport to the 
Ontario International Airport Authority, SCAG noted that 
Ontario International Airport will operate using the same 
proven structure as all other secondary airports in the region. 
Each of these airports operates as low-cost secondary sites 
under the control of an agency that takes responsibility and is 
accountable for its performance.
    The San Bernardino County Board of Supervisors most 
certainly agree with SCAG's findings. That is why we passed a 
resolution that Ontario International Airport needs to be 
managed by a regional airport authority. As a critical piece of 
our economy, the entire region has come together in support of 
the transfer of Ontario International Airport to the Ontario 
International Airport Authority. We greatly appreciate the 
interest, concern, and support of this committee. Thank you 
very much.
    Mr. Petri. Thank you.
    Mr. Santana.
    Mr. Santana. Good afternoon. On behalf of the mayor and the 
City Council of Los Angeles, I would like to thank you for this 
opportunity to address your committee. As a 23-year resident of 
the Inland Empire, I would like to personally thank you for the 
focus on revitalizing L.A./Ontario Airport in this important 
region.
    The CAO's role in this process is to analyze and provide 
recommendations to the city council and the mayor. As a CAO, I 
have 16 bosses. I report to the mayor and each one of the 15 
city council members. But I do not run the airports. The CAO 
does not manage, nor does LAWA. That is run independently by a 
separate board of the commissioners appointed by the airport. 
Any proposed transition would need to be approved by the Board 
of Airport Commissioners and affirmed by the city council.
    My office was instructed by the L.A. City Council to 
evaluate the city of Ontario's proposal and to help identify 
and analyze the other potential options for future ownership, 
operation and management of the airport. To assist in the 
review, my office contracted with Acacia Financial Group, along 
with other consultants, to help analyze potential options. It 
is our goal to facilitate and continue the dialogue with 
Ontario and its partners in discussing a long-term strategy for 
the airport.
    Indeed, our report was released on September 21st and 
outlined a number of options. Over the last few years, LAWA has 
taken numerous steps to create operational efficiencies at the 
airport and reduce operating costs in an effort to increase 
passenger traffic and promote new air service. However, despite 
these efforts, even though LAWA has made progress in improving 
operations and curtailing costs, an acquisition and transfer of 
the airport back to the city of Ontario or the Ontario 
International Airport Authority has considerable merit.
    To that end, the city of Ontario proposed in their December 
14th, 2011, letter to LAWA that the operations and fee title to 
the airport be transferred from the city of Los Angeles to the 
city of Ontario. The primary terms of that transfer include the 
following: paying to the city of Los Angeles general fund a $50 
million transaction payment unrelated to the airport's 
valuation to defray the city's cost of transferring the airport 
back to Ontario; assuming or retiring approximately $71 million 
in existing bond debt and any other Ontario-related financial 
obligations, including indemnification of any and all liability 
pertaining to those obligations; paying LAWA in years when the 
cost per enplaned passenger to airlines operating in Ontario is 
$5 or less, up to one-third of annual Ontario PFC collections 
up to the cumulative amount equal to the amount of LAX PFC 
collections contributed to capital projects at Ontario, 
estimated at about $125 million; entering into an employee 
protection and transition services agreement to protect 
existing LAWA employees; refraining from imposing any operating 
restrictions, caps, curfews, aircraft type bans, and any other 
barriers to future growth of the airport; and maintaining all 
current operating covenants for the airport, as well as 
terminating or revising the original 1967 JPA.
    The $50 million transaction payment to the city of Los 
Angeles general fund is meant by Ontario to be a reimbursement 
of the cost for transferring the airport. However, based on my 
conversations with the FAA, such a payment appears to be viewed 
by the FAA as a potential revenue diversion under Federal 
aviation law. Our city attorney has also looked at this matter 
and has concluded the same.
    However, as a result, this particular option is not an 
option that we are recommending, but we do recommend that the 
city engage in very aggressive discussions with the city of 
Ontario, the county of San Bernardino, and the Authority on an 
option that allows us to proceed forward on an effective 
transfer, and I will describe what that potential partnership 
could look like.
    In our report, we enumerate a number of different 
alternatives. The alternative that we are recommending is the 
acquisition of Ontario International Airport by the city of 
Ontario or the Ontario International Airport Authority, or by a 
separate party. Acquisition of a commercial airport by any 
other municipal agency is allowable under FAA regulations 
providing that the FAA approval is obtained and proceeds go to 
LAWA, not the city general fund, as airport revenues used to 
benefit the city's airport system.
    This alternative would provide for the new owner to, one, 
obtain an FAA operating certificate; two, compensate LAWA 
financially for the value of the airport, as well as the cost 
of the transition to the new owner; three, to freeze all 
outstanding airport debt and assume existing financial 
obligations; four, execute an employee protection agreement for 
a minimum period; five, agree to refrain from imposing 
operating restrictions, caps, curfews, bans on aircraft types; 
six, dispose of any fund balances held by the airport; seven, 
assume responsibility for outstanding grant assurances; and 
eight, assume responsibility for the airline use and lease 
agreement.
    Based on this proposal, we are recommending a path forward. 
As I stated on September 21st, my office did release a report 
that outlined a process to begin these negotiations. We are 
recommending that the city of Los Angeles and LAWA explore 
potential acquisition by the city of Ontario and the Ontario 
International Airport Authority, subject to FAA approvals. We 
also recommend that the city direct my office to facilitate a 
discussion and negotiations with all of the various parties, as 
well as other stakeholders, to discuss common goals in an 
effort to increase economic activity across the region.
    All participants could potentially achieve these goals and 
objectives by establishing a transaction with the city of 
Ontario or the Authority and providing certain financial and 
operational benefits to LAWA to enhance a much needed capital 
infrastructure at LAX. This, in fact, could be a win-win both 
for the city of Los Angeles, LAWA and, of course, the Inland 
Empire.
    Earlier this week, the city council's Trade, Commercial and 
Tourism Committee endorsed my recommendation, and it will be 
moving forward for the full city council within the next 
several days. Upon approval of that final recommendation by the 
full city council, we are recommending that the LAWA commission 
immediately meet and establish a set of guidelines to allow the 
negotiations to move forward. Those guidelines could include 
the following: to the greatest extent possible, avoid or 
mitigate any disruption of service at the airport; the airport 
must continue to be operated as a commercial airport; the 
airport shall be operated in the most efficient manner 
possible; the city and LAWA should receive reasonable 
compensation in respect of the investment that LAWA has made to 
the airport; all existing employees shall be treated fairly and 
in accordance with existing labor contracts; and the city's 
existing and future general fund base must always be protected.
    It is in the interests of both the mayor and the city 
council to move as quickly as possible on these negotiations. 
My office has been directed to report back in 90 days on the 
status of this potential partnership.
    I am also joined by Jess Romo, who is the Ontario Airport 
manager, who many of you may know, and as well by Ray Serrano 
from my office. Thank you very much.
    Mr. Petri. Thank you. Thank you all.
    I do have a few questions, and I suspect other members of 
the panel may as well.
    The first one I would direct to Mr. Wapner, and that is why 
is it that you believe transferring control of the airport to a 
new authority would be a win for all involved?
    Mr. Wapner. Well, certainly we have an aviation system in 
southern California that depends on various airports reaching 
capacity to serve the aviation needs of southern California. 
Without Ontario Airport growing to its proposed capacity of 31 
million annual passengers a year, the entire region will be 
shorthanded in trying to meet the aviation needs of the 
economic climate of southern California.
    In essence, what would then happen, according to the 
airline industry, is if they can't meet the aviation needs 
here, they will move the entire economic segment of aviation to 
another region, potentially Nevada or Arizona. So it's very 
important. As we know, the FAA system is built upon the 
principle that we need primary airports such as LAX, but we 
also need reliever airports to help relieve the primary airport 
of general aviation, as well as some of the more short-haul 
flights.
    So really, to create a system in southern California, you 
need all the airports really operating at their full capacity.
    Mr. Petri. Mr. Ovitt, what do you hope to achieve for 
Ontario Airport as a member of the new Airport Authority should 
ownership be transferred to the new airport board?
    Mr. Ovitt. Thank you, Mr. Chairman. I believe that this 
will put in charge of the airport those who have a vested 
interest in it, and it will be a multi-jurisdictional airport 
authority made up of representatives from really pretty much 
the entire catchment basin that would be utilizing the airport.
    With all of that stated, then best practices would really 
kind of demand that we have representation from all of them, 
and we would respond and be accountable to the airport vetters.
    So Ontario is a tremendous economic generator for this 
region, and we would look forward to that helping to straighten 
out our economy, which has been lagging far behind these last 
few years.
    Mr. Petri. I have a couple of questions also for you, Mr. 
Santana. You recently were quoted as saying that a change in 
airport ownership could potentially benefit all interested 
parties. Could you expand on that or explain what you meant by 
that, or how that would be possible?
    Mr. Santana. The reason why we recommended moving forward 
with these negotiations is that LAWA certainly has a number of 
pressing needs at LAX, and this potential partnership could 
result in revenue to help LAWA meet those needs.
    For the Inland Empire, obviously this has been a priority 
for many, many years, and the idea is, as articulated by the 
other panelists, is that through local control the airport 
could play a larger role in the revitalization of the regional 
economy. And like everything else, when there is that much 
importance placed on an asset, then the opportunities of 
maximizing that asset also occur.
    So from our perspective, this provides us an opportunity to 
both allow the city of Los Angeles to receive revenue to 
enhance and improve the overall capital needs of an airport 
that is an essential part of the regional economy while at the 
same time strengthening Ontario Airport by allowing those 
individuals who play a leadership role within this region to 
manage it.
    Mr. Petri. Thank you.
    Representative Miller.
    Mr. Miller. Thank you very much, Mr. Chairman.
    Councilman Wapner, what do you think the top priority would 
be for the airport once Ontario International Airport is 
transferred and you assume control?
    Mr. Wapner. Thank you, Congressman Miller. Obviously, the 
top priority is to lower the cost of business for the airlines 
so that we can incentivize airlines to come back here and 
launch more flights. What has pushed the airlines away is the 
high cost of doing business at Ontario. In fact, we are the 
highest cost airport in the United States for an airport our 
size. And airlines having limited resources, certainly they are 
going to use those resources in markets that they can do 
business at a much cheaper rate than they can at Ontario.
    Secondly, what we want to do is stop the exodus of flights 
that are now leaving Ontario and incentivize other airlines to 
come back to Ontario and increase their flights.
    We also want to stress more development on the airport side 
itself. Since Los Angeles has had control of the airport, we 
have seen little, if any, development on-site, and obviously 
the advantage of doing development on the airport site is the 
more ancillary revenue that you develop, the lower the costs 
are going to be for the airlines doing business there. So if we 
can bring more nonaviation revenue such as increased ground 
leases, parking revenue, concessions, then that will again 
lower the cost of doing business for the airlines, and it 
incentivizes them to have more business and more flights here.
    And then finally we have to target a new marketing campaign 
to recapture the flights and the people that have left Ontario 
already. A lot of folks have already created new riding habits 
by driving into Los Angeles to catch a flight, or into Burbank 
or Orange County. So the next thing that is going to be 
necessary is to have a marketing plan, and we envision all of 
southern California coming together to help fund this, but a 
new marketing plan that would bring passengers back to Ontario, 
tell them that we now have more flights, we now have cheaper 
flights, we have more airlines, give us another chance, come 
back to Ontario and we will make you happy.
    Mr. Miller. It looks like the marketing budget was 
originally $2 million. It is down to about $200,000 now, and 
Mr. Santana mentioned the cost. Looking at your cost per 
enplaned passenger, you are about $13.50 per passenger. Burbank 
is $2.09. Palm Springs is $4.07. So you have a huge 
disadvantage. When the cost goes down, you share some of the 
profits back. And the other discussion was about the employee 
compensation must be continued at current levels, and an 
average employee makes $115,000, which is 15 percent above 
anybody else. How would you deal with that?
    Mr. Wapner. Well, you know, obviously those are going to be 
some obstacles that we are going to have to talk about. When we 
examined the reason for the high cost of doing business at 
Ontario, it really came down to three primary factors.
    One, LAWA was assessing and is assessing a 15-percent 
administrative overhead charge on the operating budget at 
Ontario International Airport. So that is 15 percent we can 
knock off immediately because, obviously, the city of Ontario 
is not going to charge the same types of charges to Ontario 
Airport.
    Secondly, there are just too many employees at Ontario 
International Airport. At one point, they had over 400 
employees. If you are an airport, it might necessitate 75 to 
100 employees.
    And then finally, as you mentioned, Congressman Miller, 
because of an L.A. City charter provision, all employees, 
contractors, vendors at an L.A.-owned facility must pay 
prevailing wages. Now, obviously, we all support prevailing 
wages, but we support prevailing wages of the Inland Empire 
cost of living. These prevailing wages are based on the city of 
Los Angeles cost of living, and all of our congressional 
delegation understands that businesses locate to the Inland 
Empire because it is much cheaper for their employees to buy 
houses out here, and the cost of living is much lower. So it 
doesn't make sense to be paying employees up to 20 or 25 
percent more than what the market will bear just because of an 
L.A. City charter provision. Obviously, that provision won't 
apply to the city of Ontario.
    Having said that, one of the provisions that Mr. Santana 
has put forth is that the existing contracts be supported in 
the transfer. We are not looking to lay off any employees, 
especially 300 employees. So certainly part of the negotiations 
is going to have to find some way that these employees can 
either be absorbed into the LAWA or city of L.A. system, or 
they will stay here and they will just be replaced through 
attrition.
    Mr. Miller. Supervisor Ovitt, you mentioned that your 
vision for the growth and development of Ontario Airport is 
consistent with SCAG's regional transportation plan. Can you 
educate us further, the audience and the committee, on the 
regional transportation plan, how the transfer of the airport 
complies with that?
    Mr. Ovitt. Certainly, Congressman Miller. I would be happy 
to do that. The SCAG--the metropolitan planning organizations 
are required to actually do a plan for regional transportation 
every 4 years, and we do one that takes in the entire six-
county region, which is Los Angeles County, Ventura County, San 
Bernardino County, Riverside County, Orange County, and as well 
Imperial County, which seems interesting as well.
    Anyway, we do a regional transportation plan so that we 
make sure that we are working together to try to develop 
mobility within the entire region, and it is an investment for 
a 20-year period, and it is based on growth forecasts and 
economic trends that project out over that 20-year period. As 
well, it is interested in the role of transportation in the 
broader context of economic, environmental, and quality-of-life 
goals for the future. So when you look at that, we do the same 
thing, of course, with not only our ground transportation as 
well, we do that with our aviation as well.
    And so as a result of that, we have forecast that between 
the years 2012 to 2035, our aviation growth would show that 
Ontario's baseline medium growth, low growth and high growth 
scenarios are such that if it were the baseline medium growth 
for Ontario International Airport, we would have 19.2 million 
air passengers a year by 2035. But if we went by the scenario 
for the high growth, it could be, as Councilman Wapner had 
mentioned, 31.6 million air passengers a year.
    So that is the difference between it, and the RTP is 
obviously very important. In fact, our Federal funding demands 
that we do an excellent job and make sure that we have the 
dollars to pay for those projects as well.
    Mr. Miller. My last question is for Mr. Santana. My 
comments were not meant as an attack on the costs. They were 
just kind of glaring when I looked at them, and I hope that is 
discussed during the negotiations.
    But if the parties have successful negotiations in the 
process, how do you see the city of Los Angeles processing and 
completing the transaction?
    Mr. Santana. I'm sorry?
    Mr. Miller. If the negotiations are successful, how do you 
see the process being completed with the city of Los Angeles?
    Mr. Santana. Well, I think the first step is establishing a 
common understanding of what we are trying to achieve, and that 
is why we laid out a series of guiding principles that the city 
would engage in and immediately seek support from the 
representatives of the Inland Empire. Once those principles are 
solidified, then we can begin the work of dealing with each one 
of those issues.
    You talked about the issues of the costs. Obviously, that 
is going to be a significant amount of discussion. Establishing 
what the appropriate value is is another. How do we manage the 
issue of the employees, and I think there are a number of 
options that could be pursued to allow the transition to still 
occur while at the same time honoring the contracts that we 
currently have. And then finally, establishing what that 
transition could look like. The Authority currently doesn't run 
an airport, and so there would have to be a transition period 
for that, and there are a number of different options that 
could still involve LAWA through a contractual relationship, 
perhaps, to allow that transition to occur.
    This is obviously--the most important thing at this 
juncture is the fact that I think all sides are interested in 
getting to a common goal. I know, as someone who has been for 
many years an observer, and then an active participant in this 
process, it is refreshing to see that we are finally all on the 
same page. But the real work really begins now in developing an 
understanding and a consensus around some very difficult 
issues. But it starts off with the common interest of getting 
there.
    Mr. Miller. Thank you. I yield back.
    Mr. Petri. Representative Baca?
    Mr. Baca. Thank you, Mr. Chairman.
    I have a question for all of the panelists. Whoever would 
like to tackle the question first, please dive in.
    What is the most important message that we, as Members of 
Congress serving in Washington, DC, can send to the Federal 
Aviation Administration regarding the ongoing negotiation to 
return Ontario Airport to local control?
    Mr. Wapner. I will take that, Congressman Baca. Obviously, 
as Members of the United States Congress, you have a 
responsibility to safeguard the investment of Federal dollars. 
And as I stated in my testimony, there have been hundreds of 
millions of dollars spent from the Federal Government for the 
expansion and the operation of Ontario International Airport. 
So it is obviously in the best interest of Congress, as well as 
the United States Government, to make sure that Ontario remains 
a successful airport and operates as such.
    Secondly, as I stated earlier, the FAA, if you look at 
their system of aviation throughout the country, depends on all 
levels of airports, and I think it is consistent with the FAA 
policies that an airport like Ontario be maintained and also be 
as successful as possible.
    Now, we have talked for a while, and I publicly talk about 
the fact that if we don't act soon, Ontario Airport closes, and 
a lot of people say that can't be. But we have to look at this 
realistically. The existing airport that we have out there can 
accommodate 12 million annual passengers. We have two terminals 
which can each accommodate 6 million. We are doing just a 
little over 4 million passengers.
    All of you have flown out of our old airport, right? The 
levels that we are seeing now for ridership are the same as 
they were in 1983 out of the old terminal. So essentially, we 
have seen hundreds of millions of dollars from the Federal and 
local government gone to waste, sitting over there, because 
they are not being utilized by folks needing to use the 
airport.
    So it is imperative that FAA understand that funding they 
have made available through previous programs needs to be 
safeguarded. We need to show that when folks receive money, 
that they are going to use that money in the proper manner that 
it was intended, not to build an airport that nobody uses.
    So I think that hopefully the message to the FAA is, once 
we come to an agreement here at the local level, to expedite 
the processing and streamline the processing as much as 
possible to get the licensing done so that we can take 
transfer.
    Mr. Baca. Thank you very much. Stop wasting taxpayer money, 
yes.
    Mr. Ovitt. Thank you, Congressman Baca. And I would just 
add to that that it is a real mobility issue as well. We are 
talking about goods moving here, which is so vital to the 
entire country, and we are talking about the ability to get to 
the different airports as well. Obviously, when we talk about 
so many people here having to find flights in Los Angeles or go 
elsewhere, as opposed to being able to utilize this valuable 
asset that we have based on the lack of flights available here, 
we are talking about even more of a strangulation of our 
mobility, our ability to get goods where they need to go, et 
cetera. So I think it plays a very important role in that.
    Once again, FAA obviously is Federal, and we are talking 
and looking for your help in that regard because you have some 
control over it. We would love your help as far as the 
railroads are concerned as well on goods movement, but that is 
a whole different issue and we won't bring that up, but you 
heard me anyway.
    Mr. Baca. Thank you.
    [Laughter.]
    Mr. Ovitt. And certainly we would look to your help. You as 
our representatives have done a lot of good in helping us to 
bring dollars here for the ground access to our airport, and we 
would look forward to that in the future.
    We will not be able to grow to that 31 million, assuming 
that it becomes a real viability in the future, unless we have 
some additional help to find some other means of transportation 
besides just automobiles dropping people off. We will need 
high-speed rail or some other means as well. So we would 
probably look to you in the future. We know you have a few 
issues of your own economically speaking, but we would love to 
work with you in that regard as a partnership.
    Mr. Baca. Miguel?
    Mr. Santana. Thank you. I had an opportunity to meet with 
the assistant administrator of the FAA a few months ago to 
specifically discuss this issue and to get some clarity around 
potential diversion issues, which I was able to receive. And in 
that meeting they made it very clear that they are relatively 
agnostic on who ultimately runs the airport. However, they are 
not neutral on issues pertaining to safety, transition, and 
also accountability.
    So I think as we proceed forward in this process and 
hopefully reach a consensus, an agreement, that the FAA would 
be clear on what their expectations are as we move forward 
through that transition. So as the team that is working on 
this, both from the Inland Empire as well as the city of Los 
Angeles, has those clear expectations outlined, we can navigate 
through them efficiently and create a solution that we all want 
to seek out.
    Mr. Baca. OK. Thank you.
    I know that we all have several questions, but if I may ask 
one final question, and then hopefully we will have a second 
round so that we can complete asking some of the questions.
    Mr. Ovitt, Supervisor Ovitt, I understand that the 
responsibility of managing and eventually making Ontario 
Airport profitable is going to be a daunting task. However, I 
know that you and OIAA board are all up to the task. I want to 
reiterate that myself and other Members of Congress, 
Congressman Gary Miller representing the Inland Empire, and Ken 
Calvert and Lewis and others are willing to help in any 
possible way.
    With that in mind, please explain to us what are some of 
the first actions of OIAA board and planning to do within the 
first year of operation of the Ontario Airport if the transfer 
of control from LAWA is successful?
    Mr. Ovitt. Thank you, Congressman. Certainly I think first 
of all we will need to look at the entire facility itself, and 
obviously working with LAWA folks who have been running the 
facility. So we are going to have to look at that, take a 
revisit to how it is being run. But certainly marketing will 
play such an important role, to market it to the local patrons. 
Obviously, as Councilman Wapner mentioned earlier, to lower the 
rates for the flights and obviously try to make more flights 
available as well, so that we can reach other destinations.
    So all of those together will be important for us to look 
at, and certainly we will reach out into our communities, and 
the communities are quite large. The catchment area, of course, 
is Orange County and Riverside County, as well as San 
Bernardino County. So we will look to all of them. But we are 
going to certainly need some marketing. We are going to 
certainly need to reorganize the way we do business and try to 
become more efficient in that regard, and try to renegotiate, 
if you will, with our employees as well. So we look forward to 
all of those things.
    Mr. Baca. Thank you very much, Mr. Ovitt.
    I understand that we won't have an opportunity to ask a 
second round of questions, so the Chair has permitted me to ask 
one additional question. So I will ask this of Mr. Santana.
    Thank you for your efforts in preparing the feasibility 
study looking at the issues of local control of Ontario 
Airport. In your studies on this issue, did you find that 
Ontario Airport will be able to reduce its overall cost 
structure if it is returned to local control? Why or why not?
    Mr. Santana. We did look at cost structure as one of the 
issues and tried to identify how we could reduce the cost. Some 
of the issues have already been articulated in terms of the 
self-imposed regulations that as a city we have on our 
employees and our contractors at LAX and at Ontario. So one 
opportunity for a reduction in cost is obviously an evaluation 
of that, right-sizing the airport, the management of the 
airport, as well as engaging in contracts in a different way 
than we currently have.
    The other opportunities obviously really depend on how 
effective the airport is and how effective the region is in 
improving the local economy. There is a direct correlation with 
the decline of the economy and the decline of the airport. So 
as the regional economy improves, then it is anticipated that 
the potential of the airport also improves.
    So part of the analysis identified various scenarios in 
which that, in fact, could occur.
    Mr. Baca. Thank you very much. I don't have any other 
questions, but I would just like to state that--thank you, Alan 
Wapner, for your leadership on this endeavor in trying to bring 
us back to local control.
    Mr. Petri. Representative Calvert.
    Mr. Calvert. Thank you. Thank you, Mr. Chairman.
    I think it is very appropriate that the gentleman from 
Wisconsin is here today to help referee this situation, because 
I think he knows injustice when he sees it.
    [Laughter.]
    Mr. Calvert. And certainly he had that opportunity the 
other night.
    But I don't think it is important that we re-litigate what 
happened here at Ontario for the last number of years and why 
Los Angeles was given the opportunity to manage this facility 
some years ago. What is important is I think that we all 
recognize that the people here in the Inland Empire have every 
capability of managing this as a safe, clean, and convenient 
airport facility, and I don't think anybody intends anything 
different than that. It is important because I think obviously 
it is in the best interest of this region that that occurs.
    One of the questions that both Mr. Lewis had sent to me and 
I was interested also, not in just what--maybe this is also 
going to be important to Mr. Husing when he comes up for his 
testimony, but the impact Ontario Airport has not just on the 
city of Ontario but on the entire Inland region. Obviously, I 
am from Corona, but I am only a half-hour away from Ontario 
Airport, and it has just a tremendous impact on my home town. 
Also, I see the mayor of Riverside here.
    In your opinion, Mr. Wapner and Mr. Ovitt, what kind of 
vibrant impact does Ontario Airport have not just on the 
economy but what it does to the entire region and the 
reputation and so forth for our local community?
    I will just start with you, Mr. Wapner.
    Mr. Wapner. Well, you know, we have talked about this 
already. The airport has an enormous impact on all of southern 
California. Economically, we know that it is in the billions of 
annual economic impact, responsible for tens of thousands of 
jobs. In fact, the downfall of the airport most recently has 
caused over a half-billion-dollar negative economic impact for 
the entire region and the loss of almost 10,000 jobs in the 
region as a result.
    So when we hear discussions about the downturn in the 
economy and how when the economy improves, so will the airport, 
folks have to recognize that part of the downfall in the 
economy is due to the downfall of the airport, that it is a 
self-creating episode. So until the airport improves, the 
economy doesn't improve. It is a Catch-22 there.
    Secondly, as Supervisor Ovitt pointed out, we have issues 
like mobility, and more important than that, environmental 
impacts, where we are seeing over an additional 1.5 million car 
trips a year, that folks from the Inland Empire are having to 
go to Los Angeles to catch an airplane. That is inexcusable. 
Can any of you come up with a better, cheaper way of 
eliminating 1.5 million cars in a year than just transferring 
an airport? I mean, let's be realistic. We are looking at all 
different kinds of transit and everything else. This is an easy 
solve.
    So it impacts the economy. It impacts the environment. It 
impacts mobility. It also impacts folks' quality of life. Why 
should anyone in southern California have to endure a long-term 
ride to Los Angeles International Airport when they could go to 
one that is much closer to their home?
    I applaud Mayor Villaraigosa. He has been a long-time 
champion of regionalization of aviation. He has always 
recognized that it is always better for folks to use an airport 
closer to their home than the other way.
    And the real injustice here--and that is why folks around 
the Los Angeles International basin support local control of 
Ontario--is that they are being victimized. They are being 
victimized because their airport is the only airport not of 
choice but of necessity in southern California. Unfortunately, 
we are having to export tens of thousands, if not millions, of 
folks to that area that could very well be using airports 
closer to their homes.
    So it is really not fair to the folks living around LAX at 
this point to have to endure all the impacts of aviation when 
it could be more evenly distributed among other airports.
    Mr. Ovitt. Congressman, in answer to your question, there 
is no doubt that one of the issues that we have all been 
facing, of course, is this economic downturn, this recession 
that we have been going through, and that has an impact, 
obviously, on the number of those that are actually flying, 
especially in our area. We have been probably the hardest hit 
in the country, or at least very close to that. So that 
certainly makes a difference.
    In fact, as the airlines look at our region, part of the 
reason they are not willing to expand here is they look at the 
median household income, and we are not quite where they want 
us to be, and so that is part of the reason. And yet I would 
argue that Orange County would love to come here, would rather 
come here than John Wayne. Certainly Riverside County, very few 
go to Palm Springs. They would much prefer to come here, or 
here as opposed to Los Angeles.
    And when we have talked about the L.A. Airport, number one, 
the mobility is really difficult to get there in the first 
place, especially from here. But secondly, it is clear over on 
the West Side of Los Angeles. So you have to go all the way 
through the city as well. It wouldn't be so bad if it were on 
the eastern end of it. So that is certainly an important issue.
    I think one of the things that hurts us here in Ontario is 
our name, Ontario. I mean, you know, it takes a province in 
Canada to be as great as the city of Ontario, but that in 
itself, people don't always know where we are located. How 
close are we to Los Angeles? And the fact that we are in the 
market area of L.A. and there is great accessibility to L.A. 
from where we are as well.
    Once again, we are probably the most populated region in 
the country that doesn't have a pro football team or a 
basketball team or something of that nature. We are very large. 
The Los Angeles Basin is huge, so all of our media comes from 
Los Angeles. So we really don't have an identity of our own, 
and we need that, and that is something that the airport helps 
to bring as well. Obviously, we would love to have a media here 
as well, and that is one thing that we need to work on in that 
regard.
    So I think all of those play a very important part to our 
region and the fact that if we had that airport, I think it 
would all contribute towards--I think the figures have been 
over $6 billion economic impact to this region, not only in 
Ontario but in the surrounding area as well. And so I think if 
we are able to once again generate additional flights and build 
the air transportation figures, we will do much better.
    And the one last thing I would say is that SCAG, as I 
mentioned before, 84 members, most of which come from Los 
Angeles County--in fact, the entire City Council for L.A. is on 
it--overwhelmingly have supported regionalization of airports 
and aviation and air traffic. So they are on our side. They 
just need to remember that they voted that way. Thank you.
    Mr. Calvert. Thank you, and I do agree, we do need a 
professional football team, but we are not going to get in the 
middle of downtown L.A. and Ed Roski's deal, and neither are we 
going to bring in the Green Bay Packers to play Los Angeles.
    [Laughter.]
    Mr. Calvert. Thank you, Mr. Chairman.
    Mr. Petri. Thank you.
    Gentlemen, thank you all for the effort that went into your 
testimony and for your taking questions and handling them so 
ably.
    This will conclude the first panel. Now it is my pleasure 
to--well, you leave, and----
    [Laughter.]
    Mr. Petri [continuing]. The second panel joins us. Let me 
introduce it, and do please come forward.
    The second panel consists of the Honorable Ronald O. 
Loveridge, who is mayor of the city of Riverside and a member 
of the Ontario International Airport Authority. I understand 
Ms. Lucy Dunn has had difficulty getting here. She will be 
represented by Larry Brose, who is the vice president of 
Investor Relations and Business Development of the Orange 
County Business Council. They will be joined by Mr. Brian 
Perry, chief legislative deputy of Councilman Dennis Zine, who 
is testifying on behalf of Dennis Zine; and Mr. John Husing, 
vice president, Economics and Politics, Inc.
    Again, thank you very much for the effort that went into 
your prepared statements. They will be made a part of the 
record of this hearing in their entirety, and I would invite 
you to summarize those prepared remarks in about 5 minutes, 
beginning with Mr. Loveridge.

TESTIMONY OF THE HONORABLE RONALD O. LOVERIDGE, MAYOR, CITY OF 
 RIVERSIDE, AND BOARD MEMBER OF OIAA; LUCY DUNN, PRESIDENT AND 
 CHIEF EXECUTIVE OFFICER, ORANGE COUNTY BUSINESS COUNCIL, AND 
    BOARD MEMBER OF OIAA, ACCOMPANIED BY LARRY BROSE, VICE 
PRESIDENT, INVESTOR RELATIONS AND BUSINESS DEVELOPMENT, ORANGE 
COUNTY BUSINESS COUNCIL; BRIAN PERRY, CHIEF LEGISLATIVE DEPUTY 
FOR COUNCILMAN DENNIS P. ZINE, THIRD DISTRICT, LOS ANGELES CITY 
 COUNCIL; AND JOHN HUSING, PH.D., VICE PRESIDENT, ECONOMICS & 
                         POLITICS, INC.

    Mr. Loveridge. Thank you and good afternoon to Members of 
the House of Representatives. Let me first just thank you for 
bringing public attention to the future of the Ontario Airport.
    Two very quick stories. Yesterday I was talking to Kurt 
Markwall from San Francisco, who described arriving in Terminal 
2 at 6:00 p.m. and finding all the businesses closed and their 
gates shuttered. He said it was like walking through a ghost 
town.
    Another quick story. I know you talked a great deal about 
SCAG. They had a wonderful kind of gathering where we approved 
an absolutely first-rate regional transportation plan. But they 
had something like 30 or 40 different venues where people were 
showing their wares. One of those was from LAX. They had some 
great exhibits for what was taking place at the Los Angeles 
Airport. We asked, how about Ontario? There wasn't a pamphlet, 
there wasn't a mention. I value what is taking place at LAX, 
but I was haunted by the fact that this was a regional 
gathering and there was not a single piece of literature on the 
Ontario Airport.
    I submitted written testimony. Let me make seven points and 
try to do that quickly.
    The first point this is not a tug of war between two 
cities, Ontario and Los Angeles. It has been emphasized, 
Ontario is a regional airport. If I could speak specifically 
for Western Riverside County, Ontario is our airport, and I 
represent tens of thousands of air travelers, past and 
prospective.
    Second, and this is interesting to me, that in Western 
Riverside County, the support for local control, I would use 
the language, is just extraordinary. What is the scorecard? 
Every city in Western Riverside County, except for one, the 
Riverside County Board of Supervisors, the Greater Riverside 
Chamber of Commerce, the Inland Empire Economic Partnership, 
the Monday Morning Group--you name a group, and it has said yes 
to local control of the Ontario Airport. I've been now mayor of 
Riverside, as Ken knows, for some 18 years, and I can't 
identify any other issue that has greater widespread support 
than local control for the Ontario Airport.
    I should note that some 46 other cities across the counties 
of L.A., Orange and San Bernardino also joined the call for 
local control of Ontario Airport.
    I also think this is interesting. Those of us in elected 
life read newspapers and read what the editorials say. It is 
important to note that the editorial boards of newspapers 
across southern California strongly endorse support for the 
transport to local control.
    In Press Enterprise, a recent editorial pointed out that 
local control will eliminate the conflict of interest inherent 
with the city of L.A. controlling a competing airport in 
another jurisdiction at a time when LAX is rebuilding its own 
passenger traffic, renewing its infrastructure.
    The fourth point, and I think this was made earlier today, 
is that support for local control is centered on a reality that 
the Ontario Airport under control of LAWA is not working. And 
it is stunning, the point that Alan Wapner made, we are now at 
1980 levels, despite, as you will hear from John Husing, big-
time growth in population and in jobs in the Inland Empire. One 
major reason for the decline of passengers, as we have 
identified, is the high cost of flying out of the Ontario 
Airport. It costs more.
    I like this. This was in Tuesday's paper. The headline 
story in it was: ``Southwest Flying Less From Ontario.'' In 
2007, they had 53 daily flights. Now they have 33. There was a 
description of why that is, and I like the language of the 
representative from Southwest. `` `Apart from fuel,' Hawkins 
said, `the airlines' cost of doing business at any airport also 
plays a role.' He said, `It's the most important external 
consideration,' calling it `one of the spices in the secret 
recipe.' '' The point is that Ontario is higher; everybody else 
is much lower.
    We talked about the economic loss to this region. John 
Husing will make that point much more effectively than I can. 
But everything you read about this whole global marketplace 
that we compete in, you need an international airport within a 
reasonable distance, and that is what Ontario Airport provides.
    Point number seven. There was an excellent statement, I 
thought, by Mayor Villaraigosa. He is quoted as saying, ``This 
comprehensive report underscores the irrefutable importance of 
commercial aviation activity at LAX and indeed throughout the 
southern California region on our economic well-being. From 
passenger spending to the enhanced national and international 
trade, LAX and our region's other airports are uniquely where 
the action is.'' My point is that it is time for the action to 
also include the Ontario Airport. Every other airport in 
southern California is experiencing an increase in traffic.
    My final point, and I would thank very much the Ontario 
City Council, but after some 18 years as mayor of Riverside, I 
am stepping down but not exiting public service. One of the 
things that I look forward to is serving as a board member of 
the Ontario International Airport Authority. I will dedicate my 
best efforts to ensuring that Ontario International Airport 
makes its expected important contribution to the regional 
economy and to providing millions of southern Californians with 
a convenient regional airport to meet their travel needs.
    Thank you for your attention, and thank you for placing 
this item, as you can tell by the coverage today, at the 
attention of all of us in this region and across southern 
California.
    Mr. Petri. Thank you.
    Mr. Brose.
    Mr. Brose. Good afternoon, Chairman Petri and Congressmen. 
I am Larry Brose, vice president of business development and 
investor relations for the Orange County Business Council. Lucy 
Dunn is jetting her way here right now. She is coming in from 
northern California and unfortunately couldn't get to Ontario, 
had to come to another airport. So if I may read her testimony, 
I would appreciate that.
    ``Good afternoon, members of the subcommittee. My name is 
Lucy Dunn.''
    [Laughter.]
    Mr. Brose. ``I am president and chief executive officer of 
the Orange County Business Council and a board member of the 
Ontario International Airport Authority.
    ``The Orange County Business Council is a leading advocate 
for business on important issues locally, regionally, and 
nationally. We work to grow Orange County's economy, to 
preserve a high quality of life by promoting economic 
development countywide, and serve as a unified voice for 
business in America's sixth largest county.
    ``To understand why the Orange County----''
    Mr. Petri. Guess what? You have been replaced. She has 
arrived. You have been relieved.
    [Applause.]
    Mr. Brose. I have been upstaged.
    Mr. Petri. Welcome, Ms. Dunn. Glad you could make it.
    Mr. Brose. I will read, you answer questions.
    [Laughter.]
    Mr. Petri. Join us at the table. Come on up.
    Mr. Brose. ``To understand why the Orange County business 
community is vitally interested in the future of success of 
Ontario International Airport, one would only need to drive 
from anywhere in Orange County to Los Angeles International 
Airport. Those of us in Orange County recognize that our 
hometown airport, John Wayne Airport, is constrained. Until 
2015, the number of passengers legally capped at 10.8 million 
per year. Even if the cap were to be relaxed or lifted, there 
is an absolute limit to how much of the growth and demand for 
air service it can accommodate.
    ``In addition, due to its physical footprint, John Wayne 
Airport is limited by its single runway for commercial jets.
    ``For a time, it seemed that El Toro Marine Naval Air 
Station in Irvine might be converted to an international 
airport. However, airport proposals were defeated by two ballot 
initiatives, and eventually the airport opponents prevailed. 
Ontario International Airport quickly emerged as the best long-
term solution for unconstrained airport capacity in southern 
California to serve the large and growing southern California 
market.
    ``If you had the good fortune to fly in and out of Ontario 
International Airport, you know it is a convenient airport with 
great ground access, great parking, and modern terminals and 
facilities. Forbes named it southern California's best 
alternative airport.
    ``Ontario International Airport offers parallel runways 
that can accommodate the largest airliners in the world, 
including the Airbus A-380. Ontario International Airport can 
easily accommodate 12 million annual passengers. For residents 
in northern Orange County, Ontario International Airport is a 
wonderful choice because it offers the air service and nonstop 
destinations business travelers demand and is close to home.
    ``Ontario International Airport is ideally and uniquely 
situated to serve the needs of business and leisure travelers 
in the four-county region. Additionally and very important to 
the business community, Ontario handles a significant amount of 
the region's cargo volume. I am convinced, under the governance 
of the Ontario International Airport Authority, it will realize 
its full potential not only as a major international airport 
but also as a vital economic engine for the region.
    ``I am pleased and honored to serve as a board member of 
the Ontario International Airport Authority, and I look forward 
to working with my fellow board members to help Ontario 
International Airport achieve success as an integral part of 
the southern California network of airports. Thank you.''
    Mr. Petri. Mr. Perry.
    Mr. Perry. Chairman Petri, honorable Representatives 
Calvert, Miller, Baca, my name is Brian Perry, and I am the 
chief legislative deputy for Councilman Dennis P. Zine. He 
represents the Third District in the San Fernando Valley 
portion of Los Angeles. Regrettably, Councilman Zine was unable 
to attend in person due to a conflict at this very moment with 
a previous obligation in his district that he was unfortunately 
unable to avoid or reschedule. Your invitation, he would have 
been here personally if it had been possible.
    Councilman Zine has been honored to serve as a Los Angeles 
City Councilman, representing the Third District, the San 
Fernando Valley, for the past 11-plus years. Prior to his 
service on the Los Angeles City Council, he worked for 33 years 
as a proud member of the Los Angeles Police Department. He is a 
lifelong Angelino and has seen enormous changes not only in Los 
Angeles but throughout the region over the past several 
decades.
    In addition to his service on the Los Angeles City Council, 
he has served on the Board of Directors for the Southern 
California Association of Governments, the San Fernando Valley 
Council of Governments, the Independent Cities Association, and 
the National League of Cities, and other local, State and 
Federal decision and advisory bodies.
    As an elected official in the city of Los Angeles, he 
quickly realized that the decisions made throughout the entire 
region have a direct impact on the quality of life for 
residents in the city of Los Angeles. His message to you today 
is to offer his insight as a member of the city council, and 
his firsthand experiences and observations of the current 
situation at Ontario Airport.
    The Greater Los Angeles Area is reliant upon a system of 
commercial airports for travel to and from the region. These 
airports include Los Angeles International, Burbank, Long 
Beach, John Wayne Orange County and, of course, Ontario 
International Airport. In order to provide the best service 
possible to all the residents of our region and to the 
traveling public, it is essential that all five of these 
airports provide quality service, competitive prices, and ample 
availability of flights to and from the region.
    Unfortunately, this has not been the case. Since 2007, the 
total number of annual passengers at Ontario Airport has 
declined by 37 percent. This is why he introduced a Council 
motion in Los Angeles to review the status of Ontario Airport 
and its relationship to Los Angeles World Airways.
    This decline has driven more and more passengers to other 
airports, most notably Los Angeles International, and led to 
increased congestion on our roads and an absolute lack of 
productivity for travelers who sometimes have to drive for 
hours on southern California freeways just to take a simple 
flight to northern California. This should not be the case.
    Last year, Councilman Zine made an unannounced personal 
visit to Ontario Airport so he could see things firsthand. What 
he saw was disappointing. He saw a beautiful, modern airport 
with a complete terminal closed due to lack of flights. He saw 
approximately half of all the concession stands closed or out 
of business. This was shortly after noon on a Tuesday.
    During his visit, he also made an unannounced stop at the 
Los Angeles World Airports executive office at Ontario 
International Airport to speak with the onsite manager. He was 
shocked to learn that the onsite manager was not, in fact, 
onsite, and that there was actually a system of shared 
management where two individuals served as general managers for 
both Ontario and Van Nuys Airport on a rotating basis.
    Councilman Zine is a strong believer in local control and 
the consumer benefits of regional competition. Local officials 
and stakeholders have a greater incentive to promote and 
operate Ontario Airport with maximum efficiency. As Ontario 
grows, the local economy grows and traffic is relieved on 
southern California roads and highways. It is completely 
counterintuitive that as the population in the Inland Empire 
region has continued to grow, the service and availability of 
flights at Ontario Airport has continued to decline.
    While private airlines set the rates for their flights and 
local airports only have a certain amount of influence over 
these rates and flight schedules, the Councilman looked on the 
Internet to review the costs of flights from L.A. and Ontario 
to Sacramento. He found that a traveler from the Inland Empire 
can travel roundtrip from LAX to Sacramento for $136 cheaper 
than he can fly from Ontario on the same day, on the same 
airline. This naturally creates a tremendous incentive for 
these passengers to needlessly add to the congestion on our 
freeways for a 1-hour flight they should be able to take from 
their own backyard.
    Any deal involving the transfer of Ontario Airport back to 
local control must ensure that the city of Los Angeles and Los 
Angeles World Airways not be held liable for bond indebtedness 
related to the airport. If we can come to an agreement that 
does not harm the city or LAWA and includes fair compensation 
for the actual value and assets of the airport, then his 
message to you is simple and straightforward. He joins the Los 
Angeles Times, the Southern California Association of 
Governments, community groups throughout the city of Los 
Angeles, and many others in saying loud and clear that it is 
time to set Ontario free.
    In conclusion, he wants to thank you, Mr. Chairman and the 
other members. A vibrant Ontario Airport is critical not just 
for residents of Ontario and the Inland Empire but for the 
entire region, including the city of Los Angeles. Local control 
of Ontario Airport made under the right circumstances that do 
not harm the city of Los Angeles or LAWA is an important first 
step in reestablishing this airport as an economic engine in 
the Inland Empire and provides positive benefits to the entire 
region. Thank you.
    Mr. Petri. Thank you.
    Mr. Husing.
    Mr. Husing. Thank you, Members of Congress. It is a 
pleasure to be here today. My name is Dr. John Husing. I am a 
private economist. I have been studying the Inland Empire now, 
this year, for 48 years. I am also the chief economist of the 
Inland Empire Economic Partnership, an organization dedicated 
to increasing the prosperity of this region.
    I have been taking a look at two things that are in my 
official statement. One is why the decline in passenger traffic 
at Ontario; and second of all, what has been the economic 
impact of it.
    First of all, allow me to characterize the two-county 
Inland Empire area. Currently, it has 4.29 million people. That 
is 400,000 larger than the State of Oregon. Out of the total of 
50 States, 24 of them are smaller in population than these two 
counties. The area had 1.3 million jobs before we got into the 
recession. It still has 1.16 million today. It needs a strong 
airport just for the sheer bulk and size of this region. The 
economy here is recovering. Year over year, we are up 24,400 
jobs this year over last year.
    At its current pace this year, Ontario is going to be down 
41.2 percent between the peak in 2007 and the 2012 figure. The 
market as a whole, of which we are a part in southern 
California, at the same time is down 6.8 percent. So this steep 
reduction has meant a massive decline in Ontario's share of the 
market, from 8 percent now down to only 5.4 percent. It had 
been 8 percent all the way through from the late 1990s through 
the middle of the 2000s. Now suddenly, it has slipped to those 
levels.
    It takes us back to the 1985 level of passenger traffic. So 
in 1985, what is the difference in this area between now and 
then? The answer is we have added 2.3 million people in the 
Inland Empire since 1985. That is an increase in population of 
120 percent. That is larger than several U.S. States, what we 
have simply added. We have added 585,000 jobs since then, which 
is doubling, and that is despite the decline because of the 
recession. We have added two-thirds more businesses in that 
time. So you are looking at an airport with double the 
population, more than double, double the number of jobs, and 
two-thirds more businesses, yet we are now back to a level of 
passenger traffic from two or three decades ago.
    There is no way that it is our economy's slowdown that 
caused these kinds of declines. That makes absolutely no 
logical sense, not with those kinds of numbers in terms of what 
has happened in this region.
    Looking, then, at what it is doing to this area to have 
that occur, like any other area, we are in a competitive 
economy where we have to compete for the reasons for companies 
to come here. What has occurred is a consequence of a loss of 
traffic or loss of passenger service at Ontario is 1.1 million 
air passengers from the Inland Empire now are traversing L.A. 
County to get over to LAX. This creates a costly burden on the 
families and the businesses in this area, and as has been 
repeatedly said, adding millions of vehicle miles on L.A.-area 
freeways. Using a very conservative assumption on what are the 
ground costs, the parking costs, the time lost to commuting, 
all together that is a $48.5 million gift on the 
competitiveness of the Inland Empire just simply for that fact.
    Secondly, Ontario is, as was just stated, now a very 
expensive airport for airlines to use. Airports don't decide 
who goes there; airlines do, and they take a very careful look 
at their costs. As Mayor Loveridge indicated, one of the things 
that Southwest talks about repeatedly is the fact that it is 
too expensive to operate from here at the levels they wanted 
to.
    One of the things I took a look at is there is strong data 
from the Federal Government on every flight destination from an 
airport. If you take the 38 destinations from Ontario that 
represent a little over three-quarters of all the passenger 
trips, what we find is there is an average 18.1 percent higher 
cost of tickets from Ontario to that entire group of airports. 
That is costing people who live in this area $128 million a 
year for those folks that are still using Ontario, much less 
those who have to make the trip into L.A.
    For businesses, these may not even be the biggest costs. 
Ontario's major harm to business is the loss of direct flights. 
You want to get someplace, you want to get there as a 
businessperson, you want to do it efficiently. The direct 
flights have practically vanished to all but a very few 
locations. I took again a look at those same 38 major 
destinations, looking at direct flights that you can get from 
LAX versus the few that you can get from here. I did a huge 
reduction in the number to be conservative. Total time loss was 
roughly 420,000 hours as a consequence of sitting in airports, 
changing planes in order to be able to make those flights, 
another hit of $17.5 million.
    If we add the three things I just talked about together, 
that is a cost of $198 million to the Inland Empire economy. 
However, what didn't I measure? One, you can't get conventions 
to come here anymore because conventioneers can't fly here. So 
there has been a huge hit on the convention business, on the 
hotels. We have lost tourists. I didn't even include those in 
my calculations.
    Then there is just to businesses, when there is a reduced 
flight schedule to get places, you end up going someplace and 
sitting around for hours to go to a meeting, and then sitting 
around for hours to get a flight back here. Particularly, I 
might add, for those of us who go up to Sacramento all the 
time, the flight leaves, if I recall correctly, at about 10 
after 6:00. You end up with a meeting at 10:30. You have 
several hours in the capital. You can't get a flight back until 
1:30. That is time, and time costs money to business folks.
    In addition to that, when you have those kinds of costs, as 
an economist, one of the things you always look at is what is 
the multiplier effect of that. If you simply say for every 
dollar lost there is another dollar that is lost elsewhere in 
the economy, so a very small multiplier of 2, you get to a 
half-a-billion-dollar hit on the Inland Empire economy for what 
appears to be no good reason other than the fact that this 
institution is not playing the role it used to. There is no 
reason why a change should have occurred, and it really would 
help this area enormously now that we are effectively--by the 
way, I am running for Senate because we are going to be the 
26th largest State.
    [Laughter.]
    Mr. Husing. As a nonpartisan, I might add.
    But the fact of the matter is that this market needs an 
airport to serve it that serves our needs and under our control 
here. Thank you very much.
    [Applause.]
    Mr. Petri. Thank you.
    I do have a couple of questions.
    First, welcome, Ms. Dunn. I know you had a little struggle 
getting here, and we appreciate the effort.
    Ms. Dunn. It is a personal story that relates perfectly 
today, Mr. Chairman, because my flight to Ontario was 
cancelled.
    [Laughter.]
    Mr. Miller. And there is no backup flight available.
    Ms. Dunn. And there was no backup flight. The only way, 
sir, to get here was to travel to John Wayne Airport and travel 
an hour or so. A 1-hour trip took 3 hours, and I apologize for 
my delay, but a good example.
    Mr. Petri. My question was maybe I'll give you a chance to 
expand on that a little bit for other people. Why is it that 
residents and businesses in Orange County care about Ontario 
Airport?
    Ms. Dunn. When you have the southern California economy as 
a whole, Mr. Chairman, it is driving the California economy. 
Orange County is a major jobs-creating force, one of the lowest 
unemployment rates in the State; in fact, even lower, I think, 
than the national average. It is incredibly important for our 
businesses and travelers, our shippers, to have a 
transportation system that is effective and efficient from so 
many different vantage points.
    As you know, business is not constrained by a county or by 
a city but crosses boundaries all the time. In fact, southern 
California, both Orange County and the Inland Empire, have 
strong connections to an international market as well.
    In the case of Ontario Airport, you compare it to, for 
example, our own airport in John Wayne, which everyone in this 
room knows is my favorite airport in the world. But the reality 
is even if its right now current cap were expanded, its market 
could still not handle all of the growth perhaps that this 
region is slated to occur because it has only one runway, and 
we need a system that balances off of each other.
    When a company like Disneyland just recently invested $1 
billion in their theme park in Anaheim to become literally the 
largest employer in the Southland, you can't build any more 
parking structures. You have got to have a transportation 
system--air, rail, transit--that allows all of those visitors 
to utilize everything.
    And then the last and most important thing I want to share 
with you, why Ontario is important, no one better than Orange 
County understands the importance of local control. That 
airport is locally controlled by five supervisors locally 
elected. They understand the market. They understand the 
sensitive balance between travelers and cargo shippers, and 
they are able to adjust in a remarkable way that has made an 
airport rather efficient and effective in a tough, tough 
economy.
    But it isn't all things to all people. It has to be a great 
airport system, and that is why both business and visitors and 
residents need Ontario to succeed as well.
    Mr. Petri. Thank you.
    Mayor Loveridge, I wonder if you could expand on a 
statement in your prepared remarks that if you were to have 
local control, it would eliminate any conflict of interest in 
the management of the airport.
    Mr. Loveridge. I think I tried to illustrate that with the 
story as I began. It is a matter of where you give attention, 
where you give your focus, what you see yourself responsible 
for. Ontario Airport is here, but if you look at the five 
people who run LAWA, the executive director, their focus is on 
what it should be, on making LAX work.
    I did realize I am part of a quorum of the Santa Ana Water 
Planning Shed, so I need to leave very soon because otherwise 
the quorum will not be in place. My apologies.
    Mr. Petri. Thank you.
    Mr. Miller.
    Mr. Miller. Thank you, Mr. Chairman.
    I have really enjoyed this panel. I am not impugning the 
previous panel in any fashion, but we have heard information I 
don't think many of us have heard generated before.
    Mr. Perry, you are a breath of fresh air, Councilman Zine's 
comments that you were reading, because the three Members of 
Congress that live in this area know exactly what you are 
talking about. I remember 3 years ago I took flights out of 
Ontario that in August I tried to book that weren't available. 
You go over there and it is like Death Valley. Every time I go 
to the airport to pick up a relative, who try to come into 
Ontario if possible, you look in the distance to even find a 
plane, and they just don't exist, which is just sad because I 
remember in my assembly days in the 1990s, Joe Baca and I both 
went out of Ontario every week and there was never a problem.
    The problem that Councilman Calvert and Baca and myself 
have is we take the first flight out we can to get to 
Washington to vote, and then we take the first flight home 
after votes because we don't live in Washington. We live here. 
And if we go to Los Angeles, we can book four or five different 
flights. If we miss the one flight to Ontario, which is usually 
a connection, we can't get back here until the next day. And if 
we do take the flight out of Ontario in the morning, we can't 
get there in time to vote because of the connection. If we take 
it the wrong time of the year, the connection might not have a 
flight going out of there at all because of weather.
    So it has been a process that has occurred over the years 
that has had a huge negative impact on our region here. If you 
look at the Federal dollars that have been invested in Ontario 
Airport, I know when I started representing this city and the 
county in 1998, the amount of money I brought to the city 
council when Gary Ovitt was mayor at that point in time, and 
the existing city council, for infrastructure, for other 
services that benefit that airport directly, you look back and 
think we wasted a lot of money based on current dollars.
    There might have been earmarks back then, Mr. Calvert. You 
had to out me, didn't you?
    [Laughter.]
    Mr. Miller. But they were good earmarks. Nothing was named 
after me.
    [Laughter.]
    Mr. Miller. It was after Ontario Airport and the city 
council did the ribbon cutting. I just helped them get the 
money. But, yes, thank you for outing me.
    But, Mr. Perry, why do you believe that the carriers have 
reduced air service to Ontario, and what would the benefit be 
to the city of Los Angeles and LAX for successful transfer of 
Ontario back to the local control?
    Mr. Perry. Well, just from my own experience this morning 
as I drove from downtown Los Angeles here to Ontario, open 
freeway, clear lanes, drove pretty efficiently. The same time, 
the traffic from Ontario to downtown Los Angeles was bumper to 
bumper, was stopped, and I am hoping it is----
    Mr. Miller. I well understand that.
    Mr. Perry. So the Councilman is a firm believer, in 
principle, of local control. The benefit to Los Angeles will, 
of course, be everything that people have talked about--air 
quality, congestion. But it also will allow the Los Angeles 
World Airport to focus on making Los Angeles International 
Airport one of the most competitive and best airports in the 
world, which should be their focus. Unfortunately, it may be 
that including focusing on Ontario is detracting from their 
ability to do that, or at the very least not allowing the focus 
that needs to be put in to make Ontario the best it can be is 
lacking as well.
    All in all, everyone needs to work together, and local 
ownership and operation of Ontario would be a benefit to 
everyone in the southern California region.
    Mr. Miller. Well, Ms. Dunn, you recall back in the 2000s 
the battle over El Toro?
    Ms. Dunn. Yes.
    Mr. Miller. The significant need for an airport in North 
Orange County. At that point in time, about 2005, we were 
talking about the privately funded concept of MAGLEV from the 
convention center in Anaheim to Vegas. But the number-one 
priority stop for that would have been Ontario Airport, where 
you could have actually gotten a boarding pass at the 
convention center at Anaheim. You could have gotten on that 
train. Eleven minutes later they dropped you off at the gate 
and you got on a plane.
    That concept doesn't seem to even be in the distant horizon 
any longer because of the underutilization of Ontario at this 
point in time.
    What is your opinion in Ontario's consideration in the 
long-term solution? If you look at them to the air commuter 
traffic in our southern California region, what do you see the 
benefit being placed back in Ontario for the expansion of local 
control?
    Ms. Dunn. Well, Mr. Miller, if I may share, first, there is 
a glimmer of hope on that first vision that you just presented, 
where I just participated last week in the groundbreaking of 
ARTIC, the Anaheim Regional Transportation Intermodal Center.
    Mr. Miller. I'm very well familiar with that.
    Ms. Dunn. As you very well know. And that is, as a hub, 
could be like a new downtown for all of Orange County, where 
all forms of transportation would go, and it is still the dream 
that that station transportation would connect with Ontario; 
again, another reason why Orange County--north, south, east and 
west--we all need Ontario to succeed.
    So the aspect of local control, as you mentioned, 
critically important. When you are closest to your people, you 
are best able to serve their needs. With all due respect, 60 
miles away is not close to the market of Ontario International 
Airport, and that is why we really do need to do the right 
thing here.
    Mr. Miller. They are elected officials from L.A. County 
that just attended the hearing and just had to leave, and they 
are feeling the same need as you do.
    Mr. Husing, it has been nice reading you in the paper all 
these years. I never listened to you give speeches. You have 
done a great job.
    A couple of questions. Why do you believe air carriers have 
reduced their service to Ontario in recent years? And be 
honest. And do you feel a positive future for Ontario Airport 
if we do gain local control?
    Mr. Husing. I think that the key issue is cost, cost per 
passenger, what does it cost them to take a passenger out of 
here versus anyplace else they can use their planes. They are 
going to maximize the efficiency of their operations and 
minimize their cost per passenger. With local control, we 
strongly believe the cost per passenger here would be much more 
reflective of what you generally find in regional airports. 
Right now, it is completely out of line, and that has chased 
away business that would otherwise be flying in here and flying 
out of here and taking passengers.
    Mr. Miller. And just for the record, the cost per passenger 
in Ontario is $13.50. If you go to a comparable airport in Long 
Beach, it is $6.64. If you go to Burbank, it is $2.09.
    Mr. Husing. Precisely the issue.
    Mr. Miller. Continue. I didn't mean to interrupt you.
    Mr. Husing. No, thank you. Tell you what. I will ask the 
questions.
    [Laughter.]
    Mr. Miller. Do you feel positive about the future of 
Ontario?
    Mr. Husing. There is no reason for what happened to have 
occurred. This was a very, very efficiently run, working 
airport handling 8 percent of passenger traffic in southern 
California year after year after year until a change in 
management occurred at LAWA, period, beginning and end of 
problem.
    Mr. Miller. And, Mr. Perry, for the record, I had a very 
long meeting and a nice meeting with the director of LAWA on 
Monday. We talked to the mayor's office last week. We were 
trying to be very clear that this is not a hearing that is 
intended to beat up on Los Angeles or LAWA at all. That was 
never our intent. I hope we don't have to have another hearing 
later that might be different, but that was not the intent of 
this one.
    Our concern as elected officials, and the Federal dollars 
and the investment we have made, and the need we see for 
regional capacity for air traffic, because if you look at our 
freeways, they are impacted. The only thing nice about the 
recession, and it is not nice, is that when I get up at 4 in 
the morning to drive to LAX, I only think I have two 
bottlenecks instead of 14 going to the airport, which is a sad, 
sad thing to say for our economy, because when the recession 
started you could see the impact on our freeways every month 
decrease, and that is sad.
    But when you have seen the same thing occur at an airport 
that should be a good international airport decrease in a more 
rapid fashion, that is heartbreaking.
    I yield back and thank you, Mr. Chairman.
    Mr. Petri. Representative Baca?
    Mr. Baca. Thank you very much, Mr. Chairman.
    I know that all of us are very much concerned from a region 
perspective, and there are some of the mayors here and city 
council persons that are here. But one of the other mayors that 
was out here earlier--I don't know if he had to leave or just 
stepped out for a while--but that is Paul Eaton as well, the 
mayor from Montclair, that is very much concerned with this 
region, along with us and the panelists and other speakers.
    But let me start with Mr. Husing. One of the important 
things that you talked about, I am very interested in the 
population as we look at the population, what it was and how it 
has grown to 4.9 million people. What is anticipated in terms 
of the additional growth in the area, and what impact, then, 
will that have on Ontario Airport? Because this area is 
affordable. More and more people are moving into the Inland 
Empire, both San Bernardino and Riverside County and 
surrounding areas. Yet, with the growth in the population, what 
impact would it have? And then what kind of traffic congestion 
would it provide or give to the L.A. area if, in fact, the 
growth in the population continues to grow, as we anticipate?
    Mr. Husing. The Southern California Association of 
Governments does a lot of socio-economic work to back up the 
regional transportation program. In their forecasts, we add 
between now and 2035 in this region 1.8 million more people 
than we currently have. So right at the moment, we are at 
roughly 4.3 million. Add 1.8 million. You do the math, a huge 
area. We pass many more States in terms of our size.
    To put that in context, the number of people we will add is 
more than the number anticipated in Orange, San Diego, Imperial 
and Ventura combined. The reason for that is very simple. We 
have land, and you need land to build houses. Ergo, this is 
where the population goes.
    A similar forecast is made for jobs, that the job growth 
out here will be also larger than those four counties combined, 
and it will be by itself larger in both cases than either the 
population growth or the job growth of Los Angeles County. That 
is the future that we are staring at right now.
    We need this facility very, very badly, and we need it to 
really be prepared to handle that kind of a load going forward.
    Mr. Baca. And that will have an impact as we look at--if we 
don't go to local control and expand Ontario Airport, then the 
traffic congestion will increase, because right now most of us 
I know--Ken Calvert and I traveled from Corona and me from the 
San Bernardino area, and then Gary Miller now from Ranch 
Cucamonga into the other area. We are stuck in traffic going to 
try to get our flights. With the increase of the population, 
which means it is going to take us a lot longer to get to LAX 
to try to get through a flight, not only getting through LAX, 
but then we have to go through security. By the time we go 
through security, and then if we find out that our flights have 
been canceled, we have to run over to another airline, which we 
have done at some times and have been over at American 
Airlines, and that is another terminal, and we have the nice 
terminals that you can go from one to another and still get 
that flight if, in fact, we had them here. So that presents a 
problem.
    Could you just elaborate a little bit more in terms of the 
traffic congestion that it would have and the impact? Or, 
Perry, you could talk about that on the L.A. as well, because 
traffic congestion impacts the lives of individuals and that 
quality of life, which means that they are spending a lot more 
time on the road, which means it impacts them and their 
families and others where they can come here. And then also 
when you talked about earlier the population growth, the mayor 
here, Paul Leon, would like to see the possibility of 
increasing businesses and attracting businesses. We can't do 
that if we don't have the kind of an airport that would allow 
business.
    I will give you an example. When I worked for Verizon and 
GTE, we were looking at the possibility of moving the 
headquarters right here to Ontario because of the airport, but 
it ended up going somewhere else, and other businesses are 
thinking about this. Could you elaborate a little bit more on 
that?
    Mr. Husing. I think the thing that really disturbs me the 
most about this entire issue as a southern Californian is the 
fact that we have been working for years to try and get vehicle 
miles traveled under control, whether it is SB-375 and trying 
to get transport-oriented housing, sustainable community sorts 
of thinking, whether it is getting people to rely more on 
things like Metrolink, this has been the effort. This is the 
only case I can think of, of an agency that has not been 
working to reduce vehicle miles traveled but as a consequence 
of their actions they are increasing vehicle miles traveled. It 
is weird.
    Mr. Baca. What does that cause? Accidents? Death? I mean, 
you know, there is a lot that can go on, and we care about the 
quality of life and the life of an individual that may be put 
on the road where they wouldn't have to go if it was out here. 
I mean, we don't think that aspect in terms of a life that may 
be lost because we didn't do the right thing, and we have an 
opportunity to do the right thing and save someone's life by 
not putting them on that freeway in that congestion.
    Mr. Husing. Well, another aspect of this that goes to a 
point that you are making is this. For us to accommodate the 
increases in population that we are talking about without 
massively increasing commuting to the coast, you do want 
companies to migrate to where the workers have moved. They are 
moving there because they can afford the housing. You would 
like the companies to come with them.
    When you take an airport, which is a key asset for this 
region's competitiveness, and you eliminate its ability to 
allow companies to be competitive, then you reduce the ability 
for us to draw those firms, nothing to do with air traffic, it 
just increases the amount of commuting stacking up on those 
roads because you don't get a balance between jobs and housing, 
which is something we are all trying to accomplish.
    Mr. Baca. Thank you.
    Ms. Dunn, along the same lines, could you explain the type 
of businesses that usually will flourish with the addition of a 
strong secondary airport in large commercial markets?
    Ms. Dunn. Well, clearly tourism, but in addition, 
especially here, goods movement is hugely important, just 
starting with UPS. I think Ontario is their second largest 
market here from Atlanta, and goods movement is huge, of 
course, for the ports of L.A.-Long Beach.
    It is interesting because, as Dr. Husing has said, the dots 
all connect in so many areas of both land planning and living. 
Even just we are struggling always in southern California 
meeting our air quality requirements set by the Feds. But when 
you have a requirement that we add a million trips a year to go 
to LAX when we could be just going 2 miles down the street, it 
is crazy-making how we don't connect these dots in good land 
planning and good environmental protection. Whether or not you 
believe in all of the stuff that they talk about on greenhouse 
gases, the fact is it is just good efficiency and 
effectiveness, and that is what business is attracted to.
    So bringing jobs to the Inland Empire, which has long been 
a huge mantra for their success, their economic success, they 
have been the housing community for Orange County for many 
years, but this is a great opportunity for growth, and an 
international airport will attract those jobs and those 
businesses that marry beautifully with the residential 
communities.
    Mr. Baca. You are absolutely right. I think we have become 
commuters that are driving either to L.A. or to Orange County 
or San Diego or somewhere else because we haven't created those 
kinds of jobs, and this would give us an opportunity to attract 
and create jobs locally right here, where we can get many of 
our students who are going through our colleges, our community 
colleges, that will be able to obtain a job locally and keep 
them here. I would love to keep my family here instead of 
having them move somewhere else because they can't get a job 
here.
    But again, thank you very much. I yield back the balance of 
my time.
    Mr. Petri. Representative Calvert?
    Mr. Calvert. Thank you. Thank you, Mr. Chairman.
    I am going to bring up a name that nobody will recognize. 
My grandfather's name is Pete Hamlin. And the reason I bring 
him up is my grandfather operated a barbershop on Century 
Boulevard just a couple of miles from LAX, opened up in the 
1920s and operated it for 50 years.
    So I have been going around--I am not here to bash L.A. I 
love L.A. But since I was a little infant, I have seen L.A. 
grow, and my grandfather would tell me stories. I guess that is 
where the old chicken farms used to be, down there where the 
airport was located. They started off with a single runway, and 
they built that airport up and, of course, there were no 
freeways. There was no 405, there was no 105, there was no 605, 
there was no 91, all of which we get to travel on all the time, 
and we have built those systems up. God knows, my friend Howard 
Berman asks for more and more money for the 405, and every mile 
of freeway we develop today isn't running $10 million a mile, 
as you know, Mr. Petri. What is the 405 running right now? 
About $100 million a mile, or more?
    Mr. Petri. Probably more.
    Mr. Calvert. Probably more. So the L.A. area is severely 
impacted. I don't think there is anybody that would debate that 
subject. How far can you develop LAX? How much more air traffic 
can you bring in? How many more airplanes can you take into 
L.A. and have it as a reasonable alternative to other 
locations?
    I think that is part of the thing. It is not just what we 
want to do here for Ontario. It is what we need to do for L.A. 
I get to serve on the Appropriations Committee on defense 
appropriations, work with the L.A. airbase, and I can't tell 
you, I hear from people who work there, the horror stories they 
tell me about traffic and the cost of housing and so forth and 
so on.
    For a region, we need to develop Ontario Airport to meet 
its obligation to southern California, because I think we are 
losing business around Los Angeles because of the impacts of 
development around the airport. There isn't any land left, and 
the only way you can go is vertical and around the airport. 
That is not such a great idea.
    So I bring that up in the sense not to go after Los 
Angeles. I guess we can debate what happened to the management 
a few years ago at Los Angeles, and as was pointed out, we are 
not here to bash Los Angeles. I think they recognize they want 
to move in a different direction now, and I hope that is the 
case because it is not just good for Ontario, it is good for 
L.A. I think that point has been made.
    This economy in this region has probably been more impacted 
for a number of reasons, probably the construction industry--I 
am sure John could get into that--but more than probably any 
region in the United States as far as raw number of jobs. But 
that wasn't the reason why the traffic flows went down. I think 
everybody kind of knows that, and like I said earlier, we are 
not going to re-litigate it. But I hope we can move to an 
agreement, and I congratulate the mayor of L.A. and the members 
of the City Council of Los Angeles for recognizing that truth, 
that we need to get this back to Ontario to compete on a level 
playing ground and to get this region growing again.
    With that, Mr. Chairman, unless Lucy or anybody wants to 
say anything--I know you all very well.
    Mr. Perry. I would like to just interject that the co-
author----
    Mr. Calvert. You didn't know my granddad.
    Mr. Perry. Pardon?
    Mr. Calvert. You didn't know my granddad.
    Mr. Perry. I did not. The co-author of the motion 
introduced by Mr. Zine is Mr. Bill Rosendahl, who represents 
the area surrounding LAX, particularly Westchester, Playa del 
Ray, and all of the areas along the coast that border LAX. So 
his interest is, as everyone has been discussing here, 
benefitting Los Angeles. This whole process can be and, I 
believe, will be mutually beneficial for everyone involved.
    Mr. Petri. Great. John, do you want to say anything else 
about the housing industry? Are we coming back, by the way?
    Mr. Husing. We finally are starting to see very tiny 
increases in price.
    Mr. Petri. In other words, we bottomed out. We bottomed 
out.
    Mr. Husing. We bottomed out.
    Mr. Petri. We are on the way back. Lucy pointed out, Orange 
County is always on top.
    Ms. Dunn. But we need everyone around us to succeed as 
well. We can't be an island.
    I just wanted to thank you very much, Mr. Chairman and 
committee members, for coming here, highlighting this issue. It 
is so important, and I am really very, very thrilled that you 
are here today.
    Mr. Petri. Thank you.
    Mr. Husing. If I might just add a personal comment also is 
you might have detected a little hostility in my thinking on 
this. I can't tell you how pleased I am to see L.A. coming to 
the table with Ontario to try to put this to bed. This is 
incredibly important, and I am glad that is beginning to happen 
now.
    Mr. Miller. Would the gentleman yield for a second?
    Mr. Petri. Yes.
    Mr. Miller. I would like to again state that I want to 
thank the director of LAWA. We had a very positive meeting, and 
the sentiment was very positive moving forward. With the 
concurrence of the mayor's office last week, we had the same 
type of conversation, and they are anxious to do it the proper 
way. But I thank you for your statement because I think you are 
trying to do the right thing. Thank you very much.
    Mr. Baca. If you can yield to me before the chairman 
closes?
    Mr. Miller. I would be happy to yield.
    Mr. Baca. Thank you very much. I just basically want to 
thank the chairman for coming and having this hearing, and I 
want to thank Congressman Gary Miller for taking the lead and 
bringing us all together, and Ken Calvert and myself for being 
here and hearing the witnesses and the testimony. I think it 
enlightened us. It opened our ears and our eyes in terms of how 
we can all collaborate and work together and make a positive 
thing that would help our region and our area.
    So again, thank you very much, Mr. Chair, for taking the 
time, for being here. Hopefully you have a pleasant flight 
flying back either tonight or tomorrow, and you make every kind 
of connection, because it is important for you to be back with 
your family as well. And again, thank you very much, 
Congressman Miller, for having this hearing here today.
    Mr. Petri. I am flying out of Ontario, and I am hoping it 
is not canceled. I am sure it won't be.
    [Laughter.]
    Ms. Dunn. I will be happy to drive you to John Wayne.
    [Laughter.]
    Mr. Petri. I would like to join in thanking the panel for 
your testimony, thanking my colleagues for participating, 
particularly Representative Miller for inviting our committee 
to come to Ontario and to learn more about this very important 
problem.
    Mr. Miller. Thank you, Mr. Chairman.
    Mr. Petri. And hopefully being a catalyst in getting it 
favorably resolved, and the city of Ontario for their 
hospitality and helping with all of these arrangements.
    With that, this hearing is adjourned.
    [Whereupon, at 3:34 p.m., the subcommittee was adjourned.]

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
